<html>
<title> - SUSAN B. ANTHONY AND FREDERICK DOUGLASS PRENATAL NONDISCRIMINATION ACT OF 2011</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
SUSAN B. ANTHONY AND FREDERICK DOUGLASS PRENATAL NONDISCRIMINATION ACT 
                                OF 2011 

=======================================================================

                                HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON THE CONSTITUTION

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   ON

                               H.R. 3541

                               __________

                            DECEMBER 6, 2011

                               __________

                           Serial No. 112-74

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

71-599 PDF                       WASHINGTON : 2011 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 





























                       COMMITTEE ON THE JUDICIARY

                      LAMAR SMITH, Texas, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        HOWARD L. BERMAN, California
HOWARD COBLE, North Carolina         JERROLD NADLER, New York
ELTON GALLEGLY, California           ROBERT C. ``BOBBY'' SCOTT, 
BOB GOODLATTE, Virginia                  Virginia
DANIEL E. LUNGREN, California        MELVIN L. WATT, North Carolina
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
DARRELL E. ISSA, California          SHEILA JACKSON LEE, Texas
MIKE PENCE, Indiana                  MAXINE WATERS, California
J. RANDY FORBES, Virginia            STEVE COHEN, Tennessee
STEVE KING, Iowa                     HENRY C. ``HANK'' JOHNSON, Jr.,
TRENT FRANKS, Arizona                  Georgia
LOUIE GOHMERT, Texas                 PEDRO R. PIERLUISI, Puerto Rico
JIM JORDAN, Ohio                     MIKE QUIGLEY, Illinois
TED POE, Texas                       JUDY CHU, California
JASON CHAFFETZ, Utah                 TED DEUTCH, Florida
TIM GRIFFIN, Arkansas                LINDA T. SANCHEZ, California
TOM MARINO, Pennsylvania             [Vacant]
TREY GOWDY, South Carolina
DENNIS ROSS, Florida
SANDY ADAMS, Florida
BEN QUAYLE, Arizona
MARK AMODEI, Nevada

      Sean McLaughlin, Majority Chief of Staff and General Counsel
       Perry Apelbaum, Minority Staff Director and Chief Counsel
                                 ------                                

                    Subcommittee on the Constitution

                    TRENT FRANKS, Arizona, Chairman

                   MIKE PENCE, Indiana, Vice-Chairman

STEVE CHABOT, Ohio                   JERROLD NADLER, New York
J. RANDY FORBES, Virginia            MIKE QUIGLEY, Illinois
STEVE KING, Iowa                     JOHN CONYERS, Jr., Michigan
JIM JORDAN, Ohio                     ROBERT C. ``BOBBY'' SCOTT, 
                                     Virginia

                     Paul B. Taylor, Chief Counsel

                David Lachmann, Minority Staff Director


































                            C O N T E N T S

                              ----------                              

                            DECEMBER 6, 2011

                                                                   Page

                                THE BILL

H.R. 3541, the ``Susan B. Anthony and Frederick Douglass Prenatal 
  Nondiscrimination Act of 2011''................................     4

                           OPENING STATEMENTS

The Honorable Trent Franks, a Representative in Congress from the 
  State of Arizona, and Chairman, Subcommittee on the 
  Constitution...................................................     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, Ranking Member, Committee on the 
  Judiciary, and Member, Subcommittee on the Constitution........    21
The Honorable J. Randy Forbes, a Representative in Congress from 
  the State of Virginia, and Member, Subcommittee on the 
  Constitution...................................................    23
The Honorable Mike Quigley, a Representative in Congress from the 
  State of Illinois, and Member, Subcommittee on the Constitution    23
The Honorable Mike Pence, a Representative in Congress from the 
  State of Indiana, and Vice-Chairman, Subcommittee on the 
  Constitution...................................................    25
The Honorable Robert C. ``Bobby'' Scott, a Representative in 
  Congress from the State of Virginia, and Member, Subcommittee 
  on the Constitution............................................    26
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Member, Subcommittee on the Constitution....    26
The Honorable Steve Chabot, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on the Constitution....    28
The Honorable Jim Jordan, a Representative in Congress from the 
  State of Ohio, and Member, Subcommittee on the Constitution....    29

                               WITNESSES

Steven H. Aden, Vice President/Senior Counsel, Human Life Issues, 
  Alliance Defense Fund
  Oral Testimony.................................................    43
  Prepared Statement.............................................    46
Edwin Black, Author and Historian, The Feature Group
  Oral Testimony.................................................    54
  Prepared Statement.............................................    56
Miriam W. Yeung, Executive Director, National Asian Pacific 
  American Women's Forum
  Oral Testimony.................................................    63
  Prepared Statement.............................................    66
Steven W. Mosher, President, Population Research Institute
  Oral Testimony.................................................    69
  Prepared Statement.............................................    71

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Lamar Smith, a Representative 
  in Congress from the State of Texas, and Chairman, Committee on 
  the Judiciary..................................................    30

                                APPENDIX
               Material Submitted for the Hearing Record

Material Submitted by the Honorable Trent Franks, a 
  Representative in Congress from the State of Arizona, and 
  Chairman, Subcommittee on the Constitution.....................    96
Material Submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Ranking Member, Subcommittee on the Constitution...............   179


SUSAN B. ANTHONY AND FREDERICK DOUGLASS PRENATAL NONDISCRIMINATION ACT 
                                OF 2011

                              ----------                              


                       TUESDAY, DECEMBER 6, 2011

                  House of Representatives,
                  Subcommittee on the Constitution,
                                Committee on the Judiciary,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 1:12 p.m., in 
room 2141, Rayburn House Office Building, the Honorable Trent 
Franks (Chairman of the Subcommittee) presiding.
    Present: Representatives Franks, Pence, Chabot, Forbes, 
King, Jordan, Conyers, Scott, and Quigley.
    Staff Present: (Majority) Paul Taylor, Subcommittee Chief 
Counsel; Jacki Pick, Counsel; Sarah Vance, Clerk; (Minority) 
David Lachmann, Subcommittee Staff Director; and Veronica 
Eligan, Professional Staff Member.
    Mr. Franks. This meeting will come to order.
    I want to welcome all of you here today. We are grateful 
for your attendance, grateful to the people of this panel for 
being here with us. And I am going to go ahead and recognize 
myself for 5 minutes for an opening statement.
    Given the subject of this hearing, it seems appropriate to 
me that we all remind ourselves that the very bedrock 
foundation principle that gave birth to America in the first 
place was the conviction that all human beings are children of 
God and created equal in his sight.
    Throughout America's history, we have struggled to fulfill 
that conviction in our national life. It took a civil war in 
this Nation to make the 7,000-year-old state-sanctioned 
practice of human slavery come to an end, and, ultimately, it 
did so across the world. American women overcame the mindless 
policy that deprived them of the right to vote in America. Then 
this Nation charged into Europe and arrested the hellish Nazi 
Holocaust. We crushed the Ku Klux Klan and prevailed in the 
dark days of our own civil rights struggle.
    And, in so many ways, we have made great progress in the 
area of civil rights in this country. But there is one glaring 
exception. We have overlooked unborn children and that life 
itself is the most foundational of all civil rights.
    The result is that today in America between 40 and 50 
percent of all African American babies, virtually one in two, 
are killed before they are born, which is a greater cause of 
death for African Americans than heart disease, cancer, 
diabetes, AIDS, and violence combined. A Hispanic child is 
three times more likely to be aborted than a White child. A 
Black child is five times more likely to be aborted than a 
White child. Fourteen million Black babies have been aborted 
since Roe v. Wade. It translates to fully one-fourth of the 
African American population in America today.
    Now, you add to that the thousands of little girls who have 
been aborted in America simply because they are little girls 
instead of little boys. And these are travesties that should 
assault the mind and conscience of every American.
    The Susan B. Anthony and Frederick Douglass Prenatal 
Nondiscrimination Act heard today by this Committee will help 
prevent race and sex discrimination against the unborn by 
prohibiting anyone from subjecting them to an abortion based on 
their sex or race.
    Now, there will be those who say that this bill has a much 
larger agenda, and let me respond simply by saying that I 
sincerely and passionately hope that they are right. I truly 
hope that the debate and passage of this bill will call all 
Americans, in and outside of Congress, to an inward and 
heartfelt reflection upon the humanity of unborn children and 
the inhumanity of what is being done to them in 2011 in the 
land of the free and the home of the brave.
    But, until then, can we not, at the very least, agree that 
it is wrong to knowingly kill unborn children because they are 
the wrong color or because they are baby girls instead of baby 
boys?
    You know, I have often asked myself what finally 
enlightened and changed the hearts of those across history who 
either perpetrated or supported or ignored the atrocities in 
human genocides of their day. And while I probably will never 
truly understand, I believe I caught a glimpse of that answer 
during the Thanksgiving recess from my 3-year-old little girl 
named Gracie.
    As we were watching her favorite laughing baby videos on 
YouTube, I inadvertently clicked on a video that showed a young 
man from China playing poignant and beautiful music on the 
piano with his feet because he had no arms. They had been 
amputated when he was a child.
    My little girl looked at me with wet little eyes and she 
said, ``Daddy, he doesn't have any arms.'' I said, ``Yes, baby, 
but look how well he plays the piano with his feet. Isn't that 
amazing?'' And she said, ``Yes, but, Daddy, we have to help 
him. We have to get some arms to give to him.'' And I said, 
``Baby, there aren't any extra arms. They are all attached to 
other people already.'' And she thought for a moment, and she 
held up her own little arm and she said, ``Daddy, we can give 
him one of my arms if it will fit on him, can't we?''
    I believe the key to answering some of these seemingly 
unanswerable questions facing the human family is in how we see 
each other. On that video I saw an amazing young man who played 
heart-stirring music with his feet, but my little girl saw a 
child of God who had no arms and wanted to give him one of 
hers. How very thankful I am that my little girl was not one of 
the hundreds of millions of little girls whose lives and hearts 
were taken from this world before they ever saw the light of 
sunrise simply because they were little girls.
    Across human history, the greatest voices among us have 
always emphasized the critical responsibility of each us to 
recognize and cherish the divine light of eternity shining in 
the soul of every last one of our fellow human beings. In 1847, 
Frederick Douglass said, ``Right is of no sex, truth is of no 
color. God is the father of us all, and all are brethren.'' In 
Matthew 25, Jesus said, ``Inasmuch as ye have done it unto one 
of the least of these my brethren, ye have done it unto me.'' 
Thomas Jefferson said, ``The care of human life and its 
happiness, and not its destruction, is the chief and only 
object of good government.''
    So, ladies and gentlemen, I know that when the subject is 
related in any way to abortion the doors of reason and human 
compassion in our minds and hearts often close and the humanity 
of the unborn can oftentimes no longer be seen. But this is the 
civil-rights struggle that will define our generation, and I 
hope this hearing today will begin to open those doors again.
    The bill, H.R. 3541, follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Franks. And, with that, I would like to yield to the 
distinguished former Chairman of the full Committee, Mr. 
Conyers, for an opening statement.
    Mr. Conyers. Thank you, Chairman. I am happy to join you 
today.
    I begin with a question about the title of this bill. Is 
there anybody on this Committee that can explain to me why this 
is called the Susan B. Anthony and Frederick Douglass Prenatal 
Nondiscrimination Act?
    Mr. Franks. I will try to explain it as best I can, Mr. 
Chairman.
    First of all, you know, Frederick Douglass fought for equal 
rights back in the days of slavery and was someone that had 
great ability to speak into the heart of Abraham Lincoln and 
probably made a profound difference today. And, secondly, Susan 
B. Anthony was a tremendous advocate for women's right.
    And we are convinced that, at the very heart of this bill, 
that there is an effort here to try to carry on with those 
traditions and felt like this would be a good way to honor 
their service to mankind.
    Mr. Conyers. Well, I have studied Frederick Douglass more 
than you, and I have never heard or read about him saying 
anything about prenatal nondiscrimination in the course of it. 
And I would invite you to put into the record just exactly why 
you put his name to this bill.
    Susan B. Anthony I know less about, but I can--I know she 
was a strong advocate for women's rights.
    So I think this bill is a--the names are complete 
misnomers. And I think when we find out more about their 
careers, their speeches, their writings, their actions, I think 
that we will all find out that there is no relation whatsoever 
to the object of this measure and the two revered leaders whose 
names are on the title of this measure.
    What does the bill do? Oh, well, it makes it more difficult 
for women of color to obtain basic reproductive health-care 
services that should be available to all women. By threatening 
health-care professionals with prison time--that is what the 
bill does--it is inevitable that they will be reluctant to 
treat some patients, namely people of color, including Asian 
and Pacific Islanders, African Americans, interracial couples.
    Where someone might suspect that race or sex selection may 
have been a factor in the patient's decision, doctors will be 
reluctant to perform any tests that might reveal the sex of the 
fetus or to reveal that information to their patients--
information to which every patient has a right.
    Now, in my view, this measure would provide an opportunity 
for a conservative court to attack the very legal underpinning 
of Roe v. Wade. And I was hoping that the distinguished 
Chairman would suggest that that was one of the accusations 
that are being made about the objective of this bill. And if he 
had said this, he would be right, because I think that this is 
a way of chipping away at Roe v. Wade.
    Not since that decision has government ever arrogated to 
itself the power to decide whether a woman's reason for a pre-
viability abortion is satisfactory. This bill would be the 
first. And the reasons women have for terminating pregnancy is 
something I am not able to, nor particularly care to, go into. 
Indeed, some have long opposed exceptions for preserving the 
life or health of women in legislation that otherwise restricts 
the rights to abortion.
    Take Henry Hyde, the former Chairman of this Committee. If 
he didn't argue 100 times that health and safety of the woman 
should be no reason for them to be permitted an abortion, he 
didn't say it once. He said it all the time, from the first 
time I met him in this Committee until his last day of service, 
particularly when he was Chairman of the Committee. He was 
wrong then, and those that argue that health and safety of a 
woman would not be grounds for an abortion are still as 
erroneous as this argument has always been.
    Now, just recently, some in this Committee have opposed 
requiring hospitals to perform emergency-room abortions even 
when a woman's life is at stake--if you don't believe me, ask 
them--in the ``No Taxpayer Funding for Abortion Act.'' And 
after public outrage forced many of my colleagues to remove 
language in the text of that bill designed to eliminate 
statutory rape for existing exceptions that permit a woman 
raped to obtain an abortion, my colleagues tried to resurrect 
the effort through Committee report language.
    The measure before us does absolutely nothing to previde 
women with the tools they need to get adequate prenatal care so 
that their babies--female, male, Black, White, Asian, Latin--
can come into the world healthy, and so that both mother and 
child can thrive. That is what we are here, or supposed to be 
here, for.
    The measure before us, that we will hear from our 
distinguished witnesses, doesn't do a thing to empower women to 
make these important life choices free from any family or 
community pressures that they may now face either to have an 
abortion or to carry the pregnancy to term, or to not have an 
abortion. Remember, the right to choose is not limited to the 
right to end the pregnancy but includes the right to become 
pregnant and the right to bring a healthy child into the world. 
And so we must support women regardless of their choices and 
give them the tools to exercise those choices.
    I can't explain how the Chairman of this Committee feels 
about these real issues behind the bill, but I, as usual, 
always give him the benefit of the doubt. But the title really 
ought to be changed, and I will be talking with him about this 
after this hearing.
    This bill will not liberate or empower women but will 
further shackle them. This bill will not provide women with the 
ability to have a healthy child or have the tools necessary to 
raise that healthy child, well-educated, a full citizen of 
society, but this bill will, however, deprive women of their 
fundamental constitutional rights to personal and bodily 
autonomy.
    And so, we are all free to pursue our conscience, and I am 
sure we will seek clarity and understanding from the 
distinguished witnesses before us. And it is with that spirit 
and that openness of mind that I attend and join these hearings 
and welcome the witnesses.
    Thank you, Mr. Chairman.
    Mr. Franks. And I thank the gentlemen.
    At this time, other Members of the Subcommittee can be 
recognized for opening statements. And I now recognize the 
distinguished gentleman from Virginia, Mr. Forbes, for an 
opening statement.
    Mr. Forbes. Thank you.
    Mr. Chairman, I want to thank you for having this hearing. 
And I want to thank you, also, for something else, and that is 
for focusing your introductory remarks on the issue at hand.
    Over and over again, we hear our friends from the other 
side, when it benefits them, saying, why aren't we looking at 
the actual provisions of the law? But we always have the same 
type of comments that come out.
    First of all, we see the comment about, we just don't like 
the name of the bill. Well, I remember when we passed the 
Patient Protection and Affordable Care Act, many of us felt 
that that had nothing to do with patient protection. In fact, 
we hear from our clients over and over again how they feel it 
is hurting them and it is costing them more money. But that was 
the name. We would rather focus and debate the matters at hand 
on the bill.
    Then we talk about all the red herrings about what this 
bill does not do. Because if we can't deal with the subject 
matter here--which is, when you focus it down, how does anybody 
really justify the sex selection or race selection for doing an 
abortion? And you can't. So what you talk about is all the 
things that the bill won't do.
    And then the third thing we see, Mr. Chairman, is we love 
to talk about, look at all the things that proponents or people 
who might have been proponents, like the former Chairman, might 
have done on something else, because it gets us away from the 
focus of this bill.
    And then, after we have said that, despite the fact of just 
delineating all the atrocities that will occur if the bill 
becomes law, we say the bill really won't do anything anyway.
    And, Mr. Chairman, what I appreciate you doing is bringing 
this hearing so we can actually focus on the provisions of the 
bill and we can argue one issue, which is what is this bill 
says: Is it permissible, should it be policy this of this 
country, that we allow for sex-selection or race-selection 
abortions? And that is what is before us today.
    And, Mr. Chairman, thank you for having this hearing. And I 
hope that is what ultimately our focus will be on.
    And, with that, I yield back.
    Mr. Franks. And I certainly thank the gentleman. And that 
is, indeed, our hope.
    I would like to recognize now Mr. Quigley for an opening 
statement.
    Mr. Quigley. Thank you, Mr. Chairman.
    Before we begin today's discussion, I want to make sure we 
are clear on an important point: Race- and gender-based 
abortions are two distinct issues and should be addressed as 
such.
    On the issue of the supposed race-based abortions, the 
entire premise of the bill is wrongheaded. I must assume that 
the writers of the bill don't mean to imply that women of color 
would choose abortion as some sort of self-afflicted genocide. 
Abortion rates are higher among Black women because Black women 
face unintended pregnancies at a rate much higher than the 
general population. And the reasons for these unintended 
pregnancies that have led to abortions are a lack of 
contraception access and proper use, according to a 2008 
Guttmacher Institute report.
    So if the proponents of this bill truly want to help 
minority women, they would support Title X funding for family-
planning clinics like Planned Parenthood, comprehensive sex 
education, and the myriad of preventive health benefits such as 
free birth control and health-care reform. But they don't, 
which should tell us something about their true motivations 
behind the bill.
    As for sex-selective abortions, I agree with this bill's 
proponents that abortions based on gender are a problem around 
the world. I agree that we must take action to stop these 
abusive practices both at home and around the world.
    But here is where my agreement with the proponents of the 
bill stops. I haartily disagree with this remedy for this 
serious problem.
    First, criminalizing such practices simply will not work. 
Banning sex-selective abortions has already been tried in 
various countries around the world, and what expert agencies, 
such as the World Health Organization, which operate in these 
countries have found is that, rather than preventing such 
abortions, bans simply result, ``in a greater demand for 
clandestine procedures, which fall outside regulations, 
protocols, monitoring, and basic safety.'' In other words, 
rather than preventing abortions, which is what you want to do, 
such restrictions serve only to drive them underground, making 
them less safe. Our own history shores up this point, as well.
    Second, criminalization of sex-selective abortions would 
force physicians to question women about their reasons for 
seeking an abortion and would likely compel physicians to 
target certain groups of women from cultural groups where sex 
selection is more prevalent. To avoid liability, physicians may 
even cease providing such care to entire groups of women simply 
because of their race. This bill would promote the very racial 
discrimination it purports to combat.
    Additionally, targeting such motivations in practice would 
be nearly impossible. According to an analysis by the World 
Health Organization and four other U.N. agencies, ``Prosecuting 
offenders is practically impossible,'' and ``Proving that a 
particular abortion was sex-selective is equally difficult.''
    These expert international organizations do, however, offer 
a viable solution to address sex-selection abortions, a 
solution unmentioned in H.R. 3541: Address the root causes of 
son preference.
    The United Nations, through its work in nations where sex 
selection is prevalent, has stated that the most effective way 
to address son preference is by fighting the root economic, 
social, and cultural causes of sex inequality. For instance, 
South Korea successfully lowered its male-female ratio from 116 
boys for every 100 girls in the 1990's to the 107 boys per 100 
girls in 2007 by passing laws to improve the legal status of 
women and by implementing a public education campaign 
emphasizing the importance of women.
    So if the supporters of this bill are truly interested in 
preventing sex-selective abortions, I would like to invite them 
to join us in supporting measures that will address the root 
causes of such abortions and empower women. Such measures 
include, but are not limited to, the Global Sexual and 
Reproductive Health Act, the Paycheck Fairness Act, and the 
Violence Against Women Act.
    Sadly, I fear that supporters of H.R. 3541 will not 
champion these bills, because their true motivation behind this 
bill is not equal rights but, rather, a restriction of women's 
rights. This bill is a wolf in sheep's clothing which distorts 
the language of civil rights in order to further an ongoing 
attack on women's rights.
    So I urge my colleagues not to be fooled by the rhetoric of 
this bill and to instead work together to pass measures that 
will empower women both at home and around the world.
    Thank you.
    Mr. Franks. I thank the gentleman.
    And I now recognize the distinguished gentleman from 
Indiana, Mr. Pence, for an opening statement.
    Mr. Pence. Thank you, Mr. Chairman. And I would ask 
unanimous consent to revise and extend my remarks.
    Mr. Franks. Without objection.
    Mr. Pence. Thank you.
    I want to thank the Chairman for calling this hearing and 
for his unwavering leadership on this issue broadly. Those of 
us who have had the privilege of serving for a number of years 
with Congressman Franks know that he has been an eloquent and 
persistent advocate of the sanctity of life. And that is 
evidenced very clearly by his authoring the bill that is before 
us today.
    I believe that ending an innocent human life is morally 
wrong, an abortion. But I also believe it would be morally 
wrong for American law to remain silent when that act is 
motivated by discrimination based on race or gender. I am a 
strong supporter and cosponsor of H.R. 3541, the ``Susan B. 
Anthony and Frederick Douglass Prenatal Nondiscrimination Act 
of 2011,'' authored by this Chairman. And let us be clear on 
this point: I believe that abortion is heartbreaking in any 
circumstance, but it is particularly so when a child is aborted 
on the basis of race or gender.
    The legislation before us today, commonly referred to as 
``PRENDA,'' would explicitly prohibit the coercion of either a 
sex-selection or race-selection abortion, as well as the 
solicitation or acceptance of funds for performing either 
procedure. It would also prohibit the transportation of women 
into the country or across State lines for the purpose of 
obtaining a sex-selection or race-selection abortion.
    Notably, the pregnant woman is explicitly protected in this 
legislation from any penalties. However, those who coerce or 
facilitate an abortion on the basis of race or gender would be 
subject to all penalties under the Civil Rights Act of 1964.
    Now, having glanced a bit at summaries of the testimony we 
will hear today, I know that there will be arguments made from 
this side of the panel and that, that this legislation is 
unnecessary or even frivolous. But I have to say, Mr. Chairman, 
the facts suggest otherwise.
    Today, an African American unborn baby is five times as 
likely to be aborted as a White baby. And abortion, according 
to the Guttmacher Institute, I say with a heavy heart, abortion 
is now the leading cause of death in the Black community, with 
more than 450,000 Black abortions per year. More African 
Americans are lost to abortion annually than are lost to 
cancer, heart disease, diabetes, AIDS, and violence combined. 
According to a 2008 report by the Guttmacher Institute, a Black 
baby, as I mentioned, is five times as likely to be aborted, 
and at least 42 percent of Black babies are aborted in this 
country every year.
    The facts cry out for action. And that is action that this 
Nation and this Congress take a step one more time toward a 
more perfect union.
    And over the course of our history, America has had 
anything but a perfect record on protecting civil rights. But 
we have ever strived toward that more perfect Union, ending the 
injustice of slavery through war and national travail, granting 
civil rights to women and minorities. And now I believe it is 
time for us to take the next step and extend those protections 
against discrimination within the womb itself in our march 
toward a more perfect Union.
    One last note, Mr. Chairman. Perhaps the most compelling 
fact before this Committee today should be the realization 
that, while the United States has been on the record for some 
time condemning sex-selection abortion around the planet, our 
own laws are silent on the issue of sex- and race-selection 
abortion. Thanks to your leadership, Mr. Chairman, and I hope 
with the bipartisan support of Members of Congress, we will 
change that and we will see the laws of this Nation reflect our 
Nation's deep commitment to civil rights for the born and the 
unborn.
    And I yield back.
    Mr. Franks. Mr. Scott, do you have an opening statement, 
sir?
    Mr. Scott. Thank you, Mr. Chairman.
    I would just briefly say that I would hope we would be 
looking at a number of initiatives that would actually reduce 
the need for abortions, including health care, education, job 
training, and adoptions.
    And I yield back the balance of my time.
    Mr. Franks. Thank you, sir.
    I now recognize the distinguished gentleman from Iowa, Mr. 
King, for an opening statement.
    Mr. King. Thank you, Mr. Chairman. I thank you personally 
and professionally and from the bottom of the hearts of my 
constituents for holding this hearing today and bringing 
forward this piece of legislation.
    I thank the witnesses in advance. I very much look forward 
to your testimony.
    I hear that phrase, ``women and minorities.'' It comes 
through this legislation over and over again. If I had thought 
ahead, I would have done a search through the Federal Code to 
see how many times women and minorities are specifically 
protected in Federal law. It is over and over again. Dozens and 
dozens of times, this Congress, the voice the American people, 
have specifically defined women and minorities as being the 
very categories worthy of special protection, because, 
throughout the history of civilization, women and minorities 
have found themselves at a disadvantage and found themselves 
often the targets of some type of annihilation.
    And I find it ironic to hear the Ranking Member of the full 
Committee's opening statement on this. When I go back and look 
at the 14th Amendment of the Constitution, ``nor deny to any 
person the equal protection of the laws.'' When this Congress 
goes to such great lengths to specifically protect women and 
minorities, and the bill that is named after Frederick Douglass 
and Susan B. Anthony, it is very clear. The two people that are 
icons, that have done a great deal, and perhaps the most in 
each of their categories, for the rights and protection of 
minorities--Frederick Douglass, completely eloquent, and Susan 
B. Anthony--I don't think there is any question about why their 
names are in the title of this bill.
    And I sit here and I listen and I think, what if I had 
advocated for a policy that would put 80 percent of the 
abortion clinics in the inner city, in the heart of the 
minority areas in this country, that resulted in half of the 
African American pregnancies becoming aborted or a high 
percentage of Hispanic pregnancies becoming aborted, if I 
advocated for such a policy, let alone a publicly funded 
policy, you all know what I would be called for such a thing. I 
oppose those policies.
    And this bill defines a way that we can protect the 
innocent, unborn human lives that are targeted because of a 
bias against race and a bias against--we are calling it ``sex'' 
now, aren't we, instead of ``gender.'' Why is that? It is 
because the definition of ``gender'' is what you think you are, 
and the definition of ``sex'' is what anybody can observe, any 
physician can observe, any layperson can figure out you are. Do 
you know why we use the term ``sex'' instead of ``gender'' with 
an unborn baby? Because they haven't had a chance to have a 
voice. They haven't said, ``Here is my gender.'' So we identify 
them by ``sex.'' That is the only way I know in this public 
policy anymore that we discuss ``sex'' as opposed to 
``gender.'' They don't have a voice for themselves.
    And so we would have a discussion here about how we are 
somehow biased bringing forward to protect unborn human lives 
that are targeted because of race and gender, and that we 
should instead address the root causes of this being in the 
culture rather than put in law. Well, some will say you can't 
legislate morality, but the law is a reflection of our 
morality. It is the defined moral code of the United States of 
America. And that morality that is defined here by this 
Congress is a reflection of the culture and the people. And it 
is a restraint, and it is a guideline. And it does put a stigma 
in place, and it does advise the American people, who don't 
agree, that there is a strong majority position that protects 
the innocent, unborn lives especially of women and minorities.
    From my standpoint, I wanted to take a lot of that special 
protection language out of there for the born people, because I 
think, to a large degree, it has served a successful purpose, 
and most people now do have something much closer to equal 
opportunity today than existed when I was a young man growing 
up. But here is where I say we need to continue to make the 
case. They don't have a voice for themselves. They never had 
the opportunity to breathe free air, never had the opportunity 
to go out and be successful, never had the opportunity to love 
or live or laugh or study or work or play or contribute to this 
country.
    And I think that positions taken on the other side that 
say, ``We can't criminalize it because it will just drive it 
underground,'' is a modern version of the coat-hanger argument. 
Yes, we can. We protect innocent, unborn human lives.
    We need to have this discussion and this debate. The 14th 
Amendment says, ``nor deny to any person the equal protection 
of the laws.'' And we will get to the point of what a person is 
in this discussion, in this debate. We need to protect and 
define a person in law. That is a constitutional protection. 
The only reason we allow abortion in this country and the way 
that we do elective abortion is because we have not defined 
personhood.
    I would point out also that there is an industry in this 
country that is establishing sex selection in industry and 
advertising now worldwide and taking the claim that they are 
100 percent efficient in identifying the sex, not the gender, 
of the unborn baby. And that is bringing about some 37 million 
more boys in China than there are girls in China. That is just 
one country. This is global. This is America, with a moral 
standard.
    I thank the Chairman. I yield back the balance of my time.
    Mr. Franks. And I thank the gentleman.
    And we will now hear the opening statement of Mr. Chabot.
    Mr. Chabot. I thank the gentleman for yielding. And I want 
to especially thank the Chairman for holding this hearing today 
and his leadership in pushing the passage of this much-needed 
legislation.
    Throughout the past several decades, our country has 
struggled to eliminate gender discrimination in our schools, in 
the courtrooms, in the workplace. Today, we face these types of 
discrimination in abortion procedures. These abortions not only 
terminate life, they also yield irreparable harm on the future 
of our Nation's diversity.
    The harm goes beyond the performance of the abortions 
themselves; many of the women who have these abortions are 
abused and coerced into the procedure. A 2011 study by the 
University California at San Francisco interviewed Indian 
American women in California, New York, and New Jersey who had 
sought sex-selection abortions between the years 2004 and 2009. 
Nearly half of the participants had already had a sex-selection 
abortion, with some having as many as four sex-selection 
abortions. The women in this study talk about the forms of 
abuse and coercion they faced during that time.
    When these Indian American women were asked why they sought 
sex selections, they often described the suffering of female 
relatives who had not given birth to sons. The pressure takes 
the form of social stigma and a lack of economic support and 
respectability, stability, et cetera. These concerns were found 
to be consistent among all socioeconomic levels, even among the 
23 percent that held advanced degrees in medicine and law and 
scientific research.
    In this study, women also frequently discussed instances 
where their husbands were abusive because they were bearing a 
female baby. Some husbands even reportedly withheld food and 
water from their wives. Some hit, punched, choked, and kicked 
the women in the abdomen, attempting to forcibly terminate the 
pregnancy.
    A growing body of research now documents the relationship 
between intimate partner violence and reproductive coercion, 
sometimes resulting in forced sex and denial of health-care 
services if pregnant. One-third of the women in this study 
reported that family violence was exacerbated when they did not 
give birth to a son. As a result, many of these women 
tragically faced psychological and physical morbidity.
    What I find most heartbreaking is that many of these women 
expressed guilt, shame, and sadness over their inability to 
save the daughters that had been aborted. These women should 
not have to stand alone to save their daughters. It is time 
that we stand alongside them to protect life. And that is 
exactly what this bill will do.
    A courageous woman of her time, Susan B. Anthony, said, 
``It was we, the people, not we, the White male citizens, nor 
yet we, the male citizens, but we, the whole people, who formed 
the Union.'' I believe the sanctity of life, all life, is 
precious and should be protected. We must firmly challenge 
these new discriminatory practices and stand for children of 
all races and genders, for it is this very diversity of race 
and gender that makes America great.
    And I yield back, Mr. Chairman.
    Mr. Franks. Thank you, Mr. Chabot, especially for quoting 
Susan B. Anthony. That was very appropriate. Thank you, sir.
    And we have no other opening statements on this side, so, 
Mr. Jordan, I will recognize you, sir, for an opening 
statement.
    Mr. Jordan. I thank the Chairman.
    I will just be brief, with just a couple thank you's. I, 
too, want to thank the Chairman, not just for this legislation, 
but for your commitment to protecting the sanctity of human 
life and highlighting this issue throughout your career. We 
truly appreciate that leadership and that hard work that you 
have done so well on this most fundamental of issues.
    And, secondly, I just want to take a moment to thank the 
millions of pro-life people who, every single day, do things 
that they never get credit for, who sit down and counsel a 
teenager, who take baby supplies, who take clothes to the local 
crisis pregnancy center, who will take in unwed mothers in a 
difficult time. I want to thank all those people. They are the 
ones who make such a difference in advancing and protecting 
life.
    This issue is going to highlight something that is terrible 
that is going on, but it is those people across this country 
who truly make a difference day-in and day-out. And I want to 
take just a few minutes and thank them again for their tireless 
efforts to recognize what the Founders understood, that all 
life is precious and it truly is a gift from God.
    So, Mr. Chairman, thank you again for this opportunity and 
for this hearing.
    Mr. Franks. And I thank the gentleman.
    And, without objection, other Members' opening statements 
will be made a part of the record.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    


                               __________
    Mr. Franks. And, with unanimous consent, I would like to 
submit for the record the December 5, 2011, statement of Dr. 
Day Gardner on behalf of the National Black Pro-Life Union, 
addressed to the Chairman of the Subcommittee on the 
Constitution.
    Without objection.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Franks. With unanimous consent, I would like to submit 
for the record the statement of Dr. Alveda King, director of 
African American outreach for Priests for Life, on the 
reintroduction of the Prenatal Nondiscrimination Act.
    Without objection.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Franks. Also, without objection, I would like to submit 
for the record the December 6, 2011, statement of Ms. Kristan 
Hawkins, executive director of Students for Life of America.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Franks. Also, the June 24, 2011, Wall Street Journal 
article, ``The War Against Girls,'' by Mr. Jonathan Last.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                   __________
    Mr. Franks. And then, finally, I would like to submit for 
the record the June 26, 2011, New York Times article, ``160 
Million and Counting,'' by Mr. Ross Douthat.
    Without objection.
    [The material referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
                               __________

    Mr. Franks. Our first witnesses--thank you all for being 
here today. I am going read a little bit about you, and then we 
will--our first witness is Steven Aden. He serves as senior 
legal counsel at the Alliance Defense Fund, home to the 
country's most successful constitutional lawyers litigating the 
most significant Federal cases that threaten America's 
religious freedom and the sanctity of human life, with a near-
75-percent win rate.
    I might need a lawyer here.
    He is a member of the bars of the U.S. Supreme Court and 
numerous Federal courts. He has earned a J.D. From Georgetown 
University Law Center.
    And thank you for being here with us, Mr. Aden.
    Our second witness, Mr. Edwin Black, is a New York Times 
best-selling international investigative author of 80 award-
winning editions in 14 languages, in 65 countries, with more 
than a million books in print. His book, ``War Against the 
Weak: Eugenics and America's Campaign to Create a Master 
Race,'' met wide acclaim from Mother Jones, the National 
Review, and the New York Times Book Review, which described his 
book as, ``chilling in its exposure of the shameless racism, 
class prejudice, and cruelty of eugenic attitudes and practices 
in the United States.'' Mr. Black is the child of Holocaust 
survivors.
    Our third witness, Miriam Yeung, is executive director of 
the National Asian Pacific American Women's Forum, where she 
guides the country's only national multi-issue progressive 
organization dedicated to social justice and human rights for 
Asian and Pacific Islander women and girls in the United 
States. Current priorities include winning rights for immigrant 
women, organizing nail salon workers for safer working 
conditions, conducting community-based participatory research 
with young API women, and ending human trafficking.
    Our fourth and final witness, Steven Mosher, is an 
internationally recognized authority on China and population 
issues as well as an acclaimed author and speaker. In 1979, Mr. 
Mosher became the first American social scientist to work in 
mainland China on invitation by the Chinese Government, where 
he had access to government documents and actually witnessed 
women being forced to have abortions under the then-new one-
child policy. Mr. Mosher was a pro-choice atheist at the time, 
but witnessing these traumatic abortions led him to reconsider 
his convictions and eventually become a practicing pro-life 
Roman Catholic.
    Each of the witnesses' statements will be entered into the 
record in its entirety, and I would ask each of the witnesses 
to summarize his or her testimony in 5 minutes or less.
    And to help you stay within that time, there is a timing 
light on your table. When the light switches from green to 
yellow, you will have 1 minute to conclude your testimony. When 
the light turns red, it signals that the witness' 5 minutes 
have expired.
    Now, before I recognize the witnesses, it is the tradition 
of this Subcommittee that they be sworn. So if you would please 
stand to be sworn.
    [Witnesses sworn.]
    Mr. Franks. Please be seated. Thank you.
    I would now recognize our first witness, Mr. Aden, for 5 
minutes.

  TESTIMONY OF STEVEN H. ADEN, VICE PRESIDENT/SENIOR COUNSEL, 
            HUMAN LIFE ISSUES, ALLIANCE DEFENSE FUND

    Mr. Aden. Thank you, Mr. Chairman, Mr. Conyers, Members of 
the Subcommittee. I am deeply privileged to have been asked by 
the Subcommittee to testify today regarding the 
constitutionality of this bill.
    The bill would prohibit the practice of abortion committed 
by reason of the gender or race of the pre-born patient. Gender 
and the physical qualities that are construed as race are 
immutable human genetic qualities that exist at conception, 
like the innumerable characteristics that are woven together in 
the womb to create each unique member of the human species.
    Federal and State laws prohibit discrimination on the basis 
of gender and race in housing, employment, education, lodging, 
commercial transactions, and a host of other contexts. Human 
life in the womb is recognized and protected by the laws of 
many, if not most, of the United States against crimes of 
violence.
    In 2007, the U.S. delegation to the U.N. Commission on 
Status of Women advocated for a resolution condemning sex-
selection abortion. The Secretary of State has also spoken out 
against the practice. The U.S. Congress has passed multiple 
resolutions condemning the People's Republic of China for its 
failure to end sex-selection abortion. The American College of 
Obstetricians and Gynecologists has likewise condemned the 
practice.
    In the case of racial-selection abortion, it is no 
exaggeration to say that the African American population of the 
United States has been decimated by the widespread availability 
of abortion on demand in the last 40 years, and particularly by 
the placement of abortion providers in predominantly minority 
population centers. CDC data for 2007 shows that in the 25 
reporting areas that reported cross-classified race and 
ethnicity data, non-Hispanic Black women had the highest 
abortion ratios, at 480 abortions per 1,000 live births. Non-
Hispanic Black women accounted for nearly as many abortions 
proportionately, 34.4 percent, as non-Hispanic White women, at 
37.1 percent.
    Commenting on this trend, The Washington Post observed 
that, in the past 30 years, more mothers of color are opting to 
abort and that, in 2004, there were 50 abortions per 1,000 
Black women, compared with 10.5 per 1,000 White women. In other 
words, African American infants were five times more likely to 
be aborted than White infants. These are grave statistics for 
the African American population. Tragically, the CDC observes 
that, ``Abortion provides a proxy measure for the number of 
pregnancies that are unwanted.''
    Pursuant to Congress' authority to eradicate all badges of 
slavery and eliminate all barriers to gender equality based on 
invidious, archaic, and overbroad stereotypes, this bill would 
prohibit the knowing commitment of abortion based on the sex, 
gender, color, or race of the child or the child's parent. The 
bill also prohibits the use or threat of force to intentionally 
injure or intimidate any person for the purpose of coercing a 
sex-selection or race-selection abortion and the solicitation 
or acceptance of funds for the purpose of financing such an 
abortion.
    Congress has broad powers under the Commerce Clause to 
enact the legislation at hand in furtherance of the rights of 
equality secured by the 14th Amendment. As the Supreme Court 
stated in the United States v. Lopez, ``We have upheld a wide 
variety of congressional acts regulating intrastate economic 
activity where we have concluded that the activity 
substantially affected interstate commerce.''
    Nor does the Supreme Court's abortion jurisprudence require 
a different result. Although the Supreme Court in Planned 
Parenthood v. Casey recognized the essential holding of the 
Court in Roe v. Wade, that women possess the right to obtain an 
abortion without undue interference from the State before 
viability, that holding, Casey clarified, was based on the 
Court's perception that the State's interests weren't strong 
enough to support a prohibition at that stage.
    However, the Supreme Court has made it clear in numerous 
cases that States have a compelling interest in eliminating 
discrimination against women and minorities. Moreover, the 
Casey Court also affirmed the principle that, ``The State has 
legitimate interests from the outset of the pregnancy in 
protecting the health of the woman and the life of the fetus.''
    Nor is the absence of a medical necessity or health 
exception in this bill a constitutional infirmity. By 
definition, abortions conducted because of the sex or race of 
the infant are elective procedures that do not implicate the 
health of the maternal patient. The act clarifies that the 
mother may not be prosecuted or held civilly liable under the 
act. Thus, the private right of action provisions strike only 
at the commercial activity of providing abortion, which clearly 
substantially impacts interstate commerce. The debarment 
provision is to the same effect. As the Supreme Court has 
declared, ``It is beyond dispute that any public entity, State 
or Federal, has a compelling interest in assuring that public 
dollars drawn from the tax contributions of all citizens do not 
serve to finance the evil of private prejudice.''
    In conclusion, H.R. 3541 is conceived and drafted pursuant 
to sound constitutional authority and the best tradition of 
this Nation's commitment to civil rights and equality for all 
of its citizens.
    Thank you again for the privilege of appearing before this 
Committee.
    [The prepared statement of Mr. Aden follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Franks. And thank you, Mr. Aden, very much.
    Mr. Black, you are recognized for about 5 minutes. And 
thank you, sir, for being here.

        TESTIMONY OF EDWIN BLACK, AUTHOR AND HISTORIAN, 
                       THE FEATURE GROUP

    Mr. Black. Thank you very much for having me, Chairman 
Franks and the other distinguished Representatives. I was very 
moved by all these remarks, but I was especially moved by yours 
about the young child who was playing piano. I have had many 
similar feelings.
    So my name is Edwin Black, and I am here not as a Democrat 
or a Republican or in favor of the bill or opposed to the bill, 
but to give historical context to the discussion you are having 
now. I am an expert on eugenics, and I have come here to 
explain how America began the concept of the White master race 
some 30 years before Adolf Hitler and, in doing so, 
institutionalized through the rule of law the concept of race 
selection and gender selection--in fact, these words were 
deliberately used by them--as a context to Darwin in natural 
selection.
    So, basically, it all began, more or less--to condense this 
into the 3 minutes and 34 seconds I have left--it all began at 
the beginning of the 20th century, when millions of Jews and 
Eastern Europeans were coming in from the east coast, the 
Chinese laborers were coming in from the west coast. Mexicans 
were now abundantly in the United States in the Southwest as a 
result of the Treaty of Hidalgo, which means half of Mexico 
became the United States' property. The Blacks were off the 
plantation; the Indians were off the reservation. The agrarian 
society was moving to a cosmopolitan industrial society, and 
there was a huge dislocation in the United States in terms of 
socio-ethnic and economic texture.
    The men in power at that time decided that they wanted to 
turn back the clock and they wanted to improve society. And 
they thought that you were not born into prostitution, they 
thought that prostitution was a genetic trait; that you were 
not born into poverty, that poverty was actually born into you. 
And so they decided to get rid of poverty and to get rid of the 
social problems by subtracting the very people who they assumed 
were responsible. These were the do-gooders, the liberals, the 
progressives, who decided to subtract 10 percent of the 
American population at a swipe. At that time, it was 14 million 
people.
    And the methods that they proposed included gas chambers. 
The first euthanasia law was entered into Iowa in 1906. When 
these euthanasia laws were not put forward, they went to 
coercive sterilization, they went to marriage voiding, marriage 
prohibition. Marriage prohibition between the races was not 
decriminalized until the 1960's, Loving v. Virginia. And, 
ultimately, some 27,000 individuals in this country, under the 
rule of law sanctified by the Supreme Court, were coercively 
sterilized, mainly women, mainly without knowing what was 
happening.
    And, therefore, when I speak to you, I speak to you about 
the never-born, about the millions of people who have been 
subtracted from our society. This always was genocide. It is 
genocide today, legally. And now there is a move--and I am only 
here for the eugenics side of this--to replicate this type of 
social engineering in the United States by using advanced 
medicine.
    We all know that there are multi-millions of gendercide 
around the world, especially in certain cultures where son 
preference rules. The statistics have been given by these 
individuals. The method of population and social engineering 
there was murder. They would take the kid, they would put him 
in a pail; they would take the kid, they would throw him in the 
river. In Chicago, they did it by leaving children unattended 
in the surgical suite. It was done time and time again.
    Now we have the powers of observation, we have the powers 
of measurement, we have the power to foresee into the future. 
We don't have to wait for the first moments of life to murder 
an innocent. We can do it beforehand by techniques.
    My interest is only in the effort to manipulate society in 
favor of one gender or one race or to de-emphasize the 
existence of these people. There is a huge move afoot in this 
country to design babies, to design societies, and to create a 
new master race. Everyone can see it on the Internet. It is the 
greatest minds and the greatest moneys that want to get this 
done.
    So this is the context, the historical context.
    I am out of time. Thanks.
    [The prepared statement of Mr. Black follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
                               __________

    Mr. Franks. Thank you, Mr. Black. Thank you very much, sir.
    And, Mrs. Yeung, you are now recognized for 5 minutes.

  TESTIMONY OF MIRIAM W. YEUNG, EXECUTIVE DIRECTOR, NATIONAL 
              ASIAN PACIFIC AMERICAN WOMEN'S FORUM

    Ms. Yeung. Thank you all for having me here today.
    My name is Miriam Yeung, and I am the executive director of 
the National Asian Pacific American Women's Forum. We are the 
country's only multi-issue organization dedicated to building a 
movement for social justice and human rights for Asian and 
Pacific Islander women and girls in the United States. I am 
also a Chinese immigrant from Hong Kong and the proud mother of 
two wonderful daughters, who are doing a very good job of 
staying quiet.
    On behalf of NAPAWF and the dozen of women's rights, Asian 
American and Pacific Islander, human rights, civil rights, and 
reproductive groups that stand with me, I strongly urge the 
Members of this Congress to oppose H.R. 3541, otherwise as 
known as ``PRENDA.''
    Forgive ME for allowing my Brooklyn roots to show just a 
little bit when I say, ``PRENDA is nothing but a pretenda.'' 
PRENDA pretends to fight against racial discrimination by 
actually perpetuating discrimination against women of color. 
This bill undermines and calls into question our ability as 
women of color to make decisions about our own bodies.
    The truth is, most Americans believe that a woman knows 
what is best for her and her family. But this bill places 
unfair scrutiny on African American and Asian American women 
around our motives for seeking abortion care. This scrutiny 
promotes racial profiling by pushing doctors to assume African 
American and Asian American women are seeking abortions because 
of the race or sex of their fetus.
    Women of color already face difficulty accessing health 
care and have poorer health outcomes. African American women 
are three to four times more likely to die from pregnancy-
related causes than White women, and their unintended pregnancy 
rate is almost twice that of White women. Vietnamese women are 
more than five times as likely to die from cervical cancer, and 
Korean women have the highest uninsurance rates of any ethnic 
or racial group. Unfortunately, this measure would make health-
care outcomes for women of color even worse. Making abortion 
harder to obtain exacerbates racial disparities in health care.
    PRENDA pretends to speak the language of women's equality, 
but, unfortunately, the voting records of its supporters do not 
strengthen civil rights, women's rights, or the rights of Asian 
Americans and Pacific Islanders. For example, this year alone, 
sponsors voted to de-fund family planning, eliminate funding 
for the United Nations Population Fund, ban abortion coverage 
in State health insurance exchanges, and allow providers to 
refuse abortion care even when a woman's life is in danger. 
Sponsors of this bill did not support the Children's Health 
Insurance Program Reauthorization Act. And some would even 
require hospitals to report possible undocumented persons that 
seek treatment, thus preventing immigrants from seeking 
emergency health care.
    PRENDA pretends to address the issue of sex selection but 
does nothing to address the root causes of son preference or 
gender inequity. Son preference is a symptom of deeply rooted 
social biases and stereotypes about gender. Gender inequity 
cannot be solved by banning abortion. In fact, the United 
Nations Population Fund, the World Health Organization, the 
Office of the High Commissioner for Human Rights, UNICEF, and 
U.N. Women have issued a clear joint statement that countries 
have an obligation to ensure that these injustices, meaning son 
preference, are addressed without exposing women to the risk of 
death or serious injury by denying them access to needed 
services such as safe abortion.
    Asian American and Pacific Islander women know that gender 
inequities do exist and are working in culturally competent 
ways to provide long-term, sustainable solutions. We are 
working with members of our own community to empower women and 
girls, thereby challenging norms and transforming values. For 
example, we are carrying out programs that build the leadership 
of women, improve our economic standing, create better access 
to health care, and end gender-based violence against us.
    We need your support to put Asian Americans and Pacific 
Islanders back to work, since our community experiences the 
longest duration of unemployment of all races and ethnicities. 
We need your support on current bills such as the 
reauthorization of the Violence Against Woman Act, the Lilly 
Ledbetter Fair Pay Act, and the Health Equity and 
Accountability Act. We need humane immigration reform and many 
other policy efforts which would help my community.
    In summary, PRENDA pretends to eliminate racial and gender 
discrimination but is a thinly veiled attempt to limit abortion 
access for women of color. Instead of curbing women's rights 
and exacerbating racial discrimination, I welcome all Members 
of Congress to work with NAPAWF and all other organizations 
that stand with me to pass legislation that truly results in 
racial justice and gender equality. Let's really work together 
to improve the lives of women of color and to make this country 
a better place for daughters like mine. But let's not continue 
to pretend that this bill does that.
    Thank you.
    [The prepared statement of Ms. Yeung follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                               __________

    Mr. Franks. Thank you, Ms. Yeung.
    Mr. Mosher, you are recognized, sir, for 5 minutes.

 TESTIMONY OF STEVEN W. MOSHER, PRESIDENT, POPULATION RESEARCH 
                           INSTITUTE

    Mr. Mosher. Thank you, Mr. Chairman, Members of the 
Subcommittee.
    Nearly 9 out of 10 Americans oppose abortion for reasons of 
sex selection, but such acts of gender violence are neither 
illegal nor uncommon in our country. Permissive abortion laws 
and high resolution ultrasounds make it easier than ever for 
parents to target and eliminate unwanted daughters before 
birth.
    Now, I have followed the issue of sex-selective abortion 
for a long time. I was the first American social scientist in 
China in 1979-1980 during the beginning of the one child 
policy. I documented sex-selective infanticide in the Pearl 
River Delta, the killing of little girls after birth by their 
parents, who were under terrible pressure by the government to 
end over-quota pregnancies.
    I also testified before the Australian Senate in 1986 
against shipping ultrasound machines to China because I argued 
they would be used overwhelmingly to detect the sex of unborn 
children and that girls would be targeted for elimination; 37 
million baby girls in China have perished in this way. So this 
is an issue of concern to me for a long time.
    You know, until the recent spate of negative publicity 
focused public attention on these crimes, it was not unusual to 
find abortionists advertising the availability of sex-selective 
abortions in newspapers like The New York Times. Now, anyone 
who has lived in the Asian American community, as I have, is 
aware that the practice of selectively aborting female fetuses 
is disturbingly common. Women, as well as their daughters, are 
both victimized.
    Now, Congressman Chabot has already mentioned the study, 
the very gripping and disturbing study by Sunita Puri, an Asian 
American physician, but it is worth mentioning again because 
she actually interviewed 65 immigrant Indian women who had 
pursued fetal sex selection. She found that 89 percent of the 
women carrying girls aborted during the study. That is to say 
almost all of the women when they found out they were carrying 
girls went in and ended the lives of their unborn baby girls. 
She found that nearly half had previously aborted girls.
    And she found something else. She found evidence of gender 
violence. These women told Dr. Puri that they had been, by 
their husbands or in-laws, they had been shoved around, kicked 
in the abdomen, denied food, water and rest in an attempt to 
make them miscarry the girls they were carrying. Even the women 
who were carrying boys told of their guilt over past sex-
selection abortions, the feeling of being unable to save their 
daughters.
    So these episodes are not isolated tragedies. These are 
common occurrences in some American communities. We have two 
studies now by economists which document son-biased sex ratios. 
I don't have time to go into the details.
    But the one point that jumped out at me was this: Whether a 
mother in some of these communities gave birth to a boy could 
not be predicted by her immigration status alone. In fact, 
mothers who are U.S. citizens were slightly more likely to have 
sons than those who were immigrants. This means that sex 
selection is not a tradition from the old country that easily 
dies out. The enduring nature of sex-selection abortion further 
underlines the need for the kind of legislative remedy that 
PRENDA offers.
    Those who argue against sex and race selective abortions do 
so on the grounds that sex-selective abortion is not really a 
problem here. In fact, Maria Hvistendahl, who wrote a book 
about this, writes, ``the Prenatal Nondiscrimination Act is not 
such a bad law were it to be enacted in the countries that 
actually need it.''
    The implication here is that the United States doesn't need 
it. I disagree. While it is difficult to say with any 
exactitude how many sex-selection abortions take place in the 
U.S. Each year, the number is not trivial. Consider that we are 
talking about communities consisting of 3.9 million Chinese 
Americans, 2.8 million Indian Asians--Asian Indians, 1.6 
million Korean Americans, the highly skewed sex ratios found in 
census surveys suggest among these groups alone, that tens of 
thousands of unborn girls have been eliminated, for no other 
reason than they are considered by some to be the wrong sex.
    I disagree with Hvistendahl that the death of tens of 
thousands of American baby girls does not constitute a problem 
significant enough to be combated with legislation. Even one 
death is too many.
    Finally, this reasonable effort to rein in discriminatory 
abortions has been mischaracterized by some as ``an attempt to 
restrict health care for women of color.'' What this bill is 
really talking about is allowing Indian, Chinese, Korean 
American and other women the freedom to have babies of their 
own choosing. Isn't that what reproductive choice is supposed 
to be all about: allowing women the freedom to have the babies 
of their own choosing.
    Thank you very much.
    [The prepared statement of Mr. Mosher follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
        
                               __________

    Mr. Franks. Well, thank you, Mr. Mosher.
    We will now begin the questions. I will recognize myself 
for 5 minutes for questions, and I will direct my first 
question to you, Mr. Black.
    I keep trying to call you Dr. Black. I apologize, but you 
talk like an Ph.D. here, better than most of them, I will tell 
you.
    Mr. Black, your testimony for me was so very compelling 
because you seemed to restate one of humanity's oldest and 
perhaps most evil practices in ways that help us understand the 
consequences in real terms. I was particularly struck in your 
comments about the early eugenicists' philosophy that it wasn't 
advocated so much by the ``activists of the day'' that you 
might consider the uneducated masses, but these were the elite, 
the--I won't say do-gooders of society--but the ones that 
considered themselves smarter than everybody else. And it 
frightens me a little bit, because I think we think that they 
weren't very bright back then and how could they have fallen 
into that trap, but I wonder if sometimes today that we don't 
do the same thing.
    So my question to you, at the risk of sounding redundant, 
would you capsulize again the eugenicist practices in this 
country in the 20th century and what it led to in our country 
and outside our country and who were the primary movers and 
shakers behind it?
    Mr. Black. Well, it is important to understand that the 
genocidal actions of the American eugenicists were not 
conducted by men in white sheets burning crosses at midnight, 
but by men in white lab coats and in three-piece suits in the 
fine corridors of our great universities, in the State House, 
in the court house and in the medical society. This was all 
subject to the rule of law, and the law was put into place by 
the men in power to eliminate the existence of those they 
believed had no right to exist.
    You asked about the do-gooders. These were actually 
Utopians, and they believed that they could form a Utopia by 
cutting off 14 million Americans at a time, at a slice, and 
eventually, there would be no one left except those who 
resembled themselves. Unfortunately, as I am sure the Members 
of the Committee know, the word ``Utopia'' in Greek means 
nowhere, and even the ancient Greeks knew that Utopia was 
unattainable.
    But in their effort to create a Utopia, they decided to 
corral and sterilize and stop the reproductive rights and 
incarcerate White people with brown hair from Appalachia, 
Hispanics, Jews coming in from the East, the Asians who had 
come in to work on the railroads. These people were turned into 
untermenschen, meaning subhumans, and this was pursuant to law 
in 27 States, and was upheld by the Supreme Court no less than 
Oliver Wendell Holmes, when he said three generations of 
imbeciles are enough. Now, the kids up there think that the 
words ``imbecile,'' ``moron'' and ``idiot'' are insults, but 
the adults up there, the older ones, know that these were 
scientific terms that were designed to measure intelligence and 
to stigmatize.
    What is important to understand is that while we invented 
this race policy and eugenics, we empowered it into Nazi 
Germany. It was decades of our funding of Nazi eugenics that 
caused Adolph Hitler to praise the United States eugenics 
policy in Mein Kampf, to write fan mail to the chair, to the 
board members of Margaret Sanger, to say, your work is my 
Bible, and to pursue American principles, laws, statutes, with 
tremendous ferocity and velocity.
    In fact, we are all in horror about what happened at 
Auschwitz with Mengele. What most people don't understand is 
that Mengele's twin research was in fact funded by the 
Rockefeller Foundation when they made his boss, Otmar 
Verschuer, their chief researcher on the Rockefeller twin 
project. It was Adolf Hitler who said that national socialism 
is just biology in action.
    So we must understand that World War II was more than a war 
of economic plunder and territorial conquest. World War II was 
actually a genetic war backed up by a merciless military that 
sought to eliminate the existence of all those deemed to be 
socially unfit.
    Mr. Franks. I am going to ask unanimous consent for one 
more minute to just throw one quick other question at you. Can 
you explain how the American eugenics movement influenced the 
efforts of American population control or family planning 
movement so that the racial minorities were targeted for birth 
control, sterilizations and abortion?
    Mr. Black. During what period?
    Mr. Franks. It would be the----
    Mr. Black. After the war or before the war?
    Mr. Franks. Before the war.
    Mr. Black. Oh, okay. Well, basically, they turned welfare 
upside down. They turned education upside down. The best way to 
give educational services was to train one of these social 
misfits to care for themselves and then spend their resources 
elsewhere.
    The welfare departments thought the best thing you could do 
for a socially unfit person was to deny their existence on the 
planet. And remember this, please: It was never about your 
education or your money, because these people, the American 
eugenicists, the great legislators, the great judges, the 
university presidents, the doctors, the scientists, from 
Alexander Graham Bell all the way to Oliver Wendell Holmes to 
the Chief Justice of the Chicago Municipal Court, they all felt 
that they were doing something good for the country. What they 
didn't realize was that they were in fact committing genocide 
under Article II, Sub D, which specifically says in the 
Genocide Treaty that organized efforts to restrict births 
within a group constitutes genocide.
    Mr. Franks. Thank you, Mr. Black.
    I now recognize Mr. Conyers for 5 minutes for questioning.
    Mr. Conyers. Thank you, Chairman.
    Mr. Aden, do you believe Roe v. Wade should be overturned?
    Mr. Aden. Emphatically, yes, Mr. Conyers.
    Mr. Conyers. I heard you. I said thank you.
    Mr. Aden. Yes, sir. I think that is a civil rights struggle 
of this generation.
    Mr. Conyers. Hold it just a minute. You answered the 
question.
    Now, Mr. Mosher, do you believe Roe v. Wade should be 
overturned?
    Mr. Mosher. Yes, I do.
    Mr. Conyers. Thank you.
    You ask Mr. Black. I am not going to ask him anything.
    Mr. Black. Go ahead. What is your question?
    Mr. Conyers. Ms. Yeung, I would like to talk with you for a 
minute about what I consider the most critical part of Roe v. 
Wade, and that is with respect to the State's important and 
legitimate interest in life, the compelling point is viability, 
because the fetus then presumably has the capability of 
meaningful life outside the mother's womb, when you reach 
viability. So that means to me that the Supreme Court has made 
clear in this case from 1973 that the government may not 
prohibit abortion prior to fetal viability.
    Would you comment on that part of the case for me, please?
    Ms. Yeung. Thank you, Mr. Conyers, for the question.
    I will admit, firstly, that I am no legal scholar by any 
means, but I do know that there are many of my colleagues in 
the room who are from the Center for Reproductive Rights or the 
ACLU that have submitted comments and testimony, who can talk 
about the legal standing.
    I was actually more of a science person in my upbringing, 
and that may be a stereotype, but I actually was pretty good at 
math and science, and what I do know scientifically is that a 
fetus cannot live outside of a woman's body before 24 weeks.
    Mr. Conyers. That is not bad for a person without medical 
training or legal training.
    Let me ask you this, Ms. Yeung. In the communities where 
you work, what are some of the actual barriers to women's 
comprehensive health care?
    Ms. Yeung. Yes. I am really pleased that there is this 
hearing which focuses on the needs of Asian Americans and 
Pacific Islanders. We have always wanted this sort of support 
and attention, particularly, as many of us know, Asian 
Americans and Pacific islanders make up only 6 percent of the 
U.S. population, we often have to fight for our air time. And 
there is a huge need, of course, for disaggregated information 
about our community, so information that treats the different 
ethnicities as separate.
    So I am also pleased that this issue allows us to look at 
how--to look at different ethnic communities, particularly 
Chinese, Korean and Indian communities in this case. But we 
have really serious issues that the Asian Pacific Islander 
community have identified. As I mentioned in my testimony, we 
know that Asian American women, particularly Vietnamese women, 
suffer from cervical cancer at extraordinarily high rates. We 
have disproportionate rates of hepatitis B infection, which 
would require more attention. We know that Filipino women are 
at higher risk for breast cancer than Black or White women.
    We know also that Asian American and Pacific Islander young 
people are targets for school bullying at disproportionate 
rates and higher rates than other races and ethnicities. And 
when do you do look at disaggregated Asian Pacific Islander 
data, we see in many places that young API women and girls have 
lower self-esteem than their counterparts. And, as I mentioned 
before, we also have long-term unemployment to face.
    These are all issues that are real issues that I would 
submit and ask that the Congress really do help us address.
    Mr. Conyers. Thank you very much.
    Do you believe that this bill would help women, would 
liberate them? I mean, after all, where we got the names of two 
great civil rights people I will never know, but do you think 
that this is going to help liberate women in their struggle?
    Ms. Yeung. On the contrary, I believe that this bill would 
hurt women, and women of color in particular.
    Mr. Conyers. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Franks. I thank the gentleman.
    I now recognize Mr. Chabot for 5 minutes.
    Mr. Chabot. I thank the Chairman for his recognition.
    Ms. Yeung, it was mentioned--well, let me just make a 
couple of comments.
    First of all, I think Mr. Conyers, who I consider to be a 
friend, even though we don't agree on a whole lot of issues, I 
still think he is a gentleman and a scholar, I just think he is 
very wrong on this particular issue.
    But I think asking some of the panel members relative to 
their position on Roe v. Wade, I think the implication is that 
they are somehow biased because they do believe that Roe v. 
Wade ought to be overturned.
    I strongly believe it ought to be overturned as well, 
particularly when you consider that there is about 50 million 
or so Americans who aren't here because of that decision that 
happened on the day--my birthday actually is on January 22nd, 
1973, and every day on my birthday, I think about how many--and 
we have nice thoughts, other than getting older, which isn't 
necessarily all that great, but I think of all those who never 
experienced life, the opportunities that I have had and our 
kids have had and many other people have had because of that 
decision. Fifty million Americans aren't here, don't exist, 
because of that decision. So there is an awful lot of us that 
think that that was a horrific decision.
    And I happen to be the principal sponsor of the ban on 
partial birth abortion, which was originally Stenberg v. 
Carhart and then Gonzales v. Carhart, which was upheld by a 5-4 
decision in the U.S. Supreme Court.
    I guess, Mr. Aden, I would like to ask you that question if 
I could to begin with.
    In the light of that particular decision, are you confident 
that this legislation, should we be able to pass it in the 
House and the Senate and get it beyond this President's veto, 
because I am sure--well, I can't say I am sure he would veto 
it, but assuming he would veto it, we probably wouldn't have 
the two-thirds to override the veto.
    But if we got it there to the Supreme Court, do you feel 
confident on a legal basis that this would be upheld?
    Mr. Aden. Yes, I am confident of that.
    Mr. Conyers asked about Roe v. Wade. As I quoted earlier, 
the Supreme Court in Roe affirmed the principle that the State 
has legitimate interests from the outset of the pregnancy in 
protecting the life the fetus. It reaffirmed that principle 
recently in Gonzales v. Carhart.
    In point of fact, the partial birth abortion procedure, as 
you probably know, was not restricted to post-viability 
abortions. It was also performed before viability. But that was 
of no moment to the Supreme Court in determining that the 
Partial Birth Abortion Ban Act was constitutional, despite the 
absence of a health exception.
    Mr. Chabot. Thank you.
    Ms. Yeung, you had mentioned--well, let me just comment. 
You had mentioned that, you know, a fetus or a baby or unborn 
child, whatever terminology one prefers, can't survive outside 
the womb, the womb beyond--before 24 weeks. That is why I 
believe that we shouldn't remove those babies from the womb 
before 24 weeks. In fact, we ought to let them go to term and 
then be delivered naturally and enjoy the same life that we all 
have.
    Let me ask you this: Do you think it is okay to determine 
the sex of the child and you find out it is a girl and then to 
terminate that life? Do you think that should be the law?
    Ms. Yeung. Thank you for the question.
    And thank you also for inviting Mr. Black to be part of the 
panel. As a reproductive----
    Mr. Chabot. I have got a limited amount of time, if you 
could get to my question. Do you believe it is okay to 
terminate the life of that child simply because you found out 
that it is a little girl? Yes or no?
    Ms. Yeung. Because eugenics is an issue that reproductive 
justice organizations have really cared about, and coercive 
actions on the part of any person to make or force a woman to 
make a decision that she cannot--or that she is not asked about 
making----
    Mr. Chabot. Yes or no, that is what I am asking. Do you 
think it should be okay?
    Ms. Yeung. I believe is just as bad. So I would believe 
that coercing or a woman to become a parent when she knows it 
is not the best thing for her----
    Mr. Chabot. Let's talk about coercion. I think you heard 
this study about Indian American women that showed that a 
significant proportion of those women were coerced, either 
beaten, or even food and water oftentimes withheld from them 
because they wanted to continue to proceed to have their 
daughter, but they were forced, there was coercion there. Do 
you think that that coercion should affect the decision as to 
whether one should have that abortion or not?
    Ms. Yeung. This bill does not address anything on coercion, 
and I would submit that we have the support of many South Asian 
organizations, including the South Asian Americans Leading 
Together----
    Mr. Chabot. I think my time has expired, Mr. Chairman. And 
I would just note that the witness still hasn't the question 
yes or no.
    Mr. Franks. Well, the coercion statement is in the first 
and second section of the criminal part of the bill, so 
coercion is definitely addressed in the bill.
    I now recognize Mr. Quigley for 5 minutes.
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Aden, I respect your viewpoints. I just want to ask you 
about the racial aspect of this. The study I saw with 
Guttmacher is that only 1 in 10 abortion clinics in the United 
States are in predominantly Black neighborhoods. African 
American women have less access to sex education and 
contraception. Isn't it more likely that that is the reason 
there are more unwanted pregnancies and abortions among the 
Black community than among the White community?
    Mr. Aden. Actually, Mr. Quigley, I am not sure I agree with 
the statement. That is not in the record. Planned Parent and 
other organizations have poured millions and millions into 
predominately minority neighborhoods in the last 40 years.
    Mr. Quigley. That is a 2008 Guttmacher study, 1 in 10.
    Mr. Aden. Well, sir, there are a couple of studies that 
indicate that predominately abortion clinics are located in 
disproportionately minority neighborhoods, somewhere between 70 
and 80 percent. A lot of us believe that has been intentional; 
that has been a policy on the part of Planned Parenthood and 
other abortion providers.
    What this bill does, sir, is not target the mere placement 
of an abortion clinic in a predominantly minority neighborhood. 
It targets the purposeful termination of a baby's life because 
that baby is of a disfavored race.
    Mr. Quigley. It is the fundamental premise of the 
legislation, as we are reading this, is we are concerned with 
African Americans having more abortions and that somehow it is 
a race-based decision. There is a deliberate attempt out there 
to have more Blacks have abortions.
    When you mention Planned Parenthood, if that is their grand 
plan, why would they offer contraception? Why would they 
promote sex education, which you have to believe reduces the 
number of unwanted pregnancies? You have to agree. I don't know 
of any studies that show that African American women have more 
access to these things and have fewer unintended pregnancies as 
a result.
    Mr. Aden. Well, I think that shows the failure of those 
family planning policies, that so many millions have been 
poured into contraceptives for minority populations and yet 
they still have abortions at a much higher rate.
    Mr. Quigley. And I am not trying to rush you, talk as long 
as you need to on that point, but you don't believe in a 
woman's right to choose. That is your point. Do you believe a 
woman should have access to contraception on an equal basis?
    Mr. Aden. I am sorry, would you repeat the question, 
please?
    Mr. Quigley. Should women have a right to contraception on 
an equal basis?
    Mr. Aden. I don't think my opinion on that subject is part 
of this hearing or one of the issues.
    Mr. Quigley. It helps me understand----
    Mr. Aden. It is not about family planning, Mr. Quigley.
    It has nothing to do with clinics that provide 
contraception, chemical or otherwise, or family planning. It 
has to do with clinics that provide abortion. Family planning 
doesn't reduce the numbers of, for example, African Americans 
by 14 million over the last 40 years.
    Mr. Quigley. Do you believe that contraception, if 
available, reduces unintended pregnancies? I guess it is the 
other way----
    Mr. Aden. I think the jury is out on that question, Mr. 
Quigley. I don't think that has been proven. I think that is 
the Guttmacher Institute's position, but as you know, 
Guttmacher is financed by and was started by Planned Parenthood 
and recites the party line. So I don't think it can be trusted.
    Mr. Quigley. You don't believe Black women want to have 
abortions because they don't like having Black babies.
    Mr. Aden. No, sir.
    Mr. Quigley. So they have abortions because they have 
unintended pregnancies disproportionate to the White 
population.
    Mr. Aden. That is not what this bill targets, sir. This 
bill targets providers who provide abortions based on race, 
just as it targets abortionists that provide abortions based on 
sex. If the abortionist knows that the mother desires to abort 
the baby because of the sex or because of the race, for example 
in a case in Maine, where the parents of a minor girl tried to 
force her to have an abortion because the father was African 
American. A perfect example.
    Mr. Quigley. So the physician would say to an African 
American woman, to follow a process that you are thinking here, 
are you having this abortion because your child is Black? That 
is what they would have to ask?
    Mr. Aden. That would be an example of private racial 
discrimination that would be the subject of this legislation, 
yes, sir, if that were the case.
    Mr. Quigley. So you would have a physician ask a woman of 
color if she is having this abortion because her child is 
minority?
    Mr. Aden. There is nothing in the bill, sir, that requires 
the abortionist to go into a lengthy inquiry about the 
patient's state of mind.
    Mr. Quigley. How will they make the decision then?
    Mr. Aden. If the patient made that statement to them, 
``Doctor, I can't have this baby because it's Black or because 
this baby is my third daughter.''
    Mr. Quigley. Thank you, Mr. Chairman.
    Mr. Franks. I now recognize the gentleman from Ohio, Mr. 
King--I am sorry, Mr. Iowa.
    Mr. King. Thank you, Mr. Chairman.
    I thank the witnesses for your testimony.
    I listen to this discussion and the disproportionate number 
of female babies that are aborted, I think of a story that I 
recall hearing some years ago, and it referenced some of the 
British occupation of India 200 years ago, when a British 
general found himself on a location where there was an Indian 
man who had died and they were getting ready to build the 
funeral pyre to force the widow to die on the funeral pyre, 
because that was what they did. And the British general began 
building a gallows. And they said, what are you doing? He said, 
I am building a gallows. They said, why? He said because you 
are about to burn this widow on the funeral pyre. And they said 
that is our custom. And the British general said to them, that 
is your custom. When you burn the widow on this funeral pyre, I 
will follow our custom, and I will hang you all. That was 200 
years ago.
    During World War II, I had a friend, who has since passed 
away, his name is Gill Copper, Fort Dodge, Iowa. He went down 
under the bridge in the Ganges River in India, and when he had 
any leave time during the Second World War, just stood there or 
sat and listened and waited for the splash, for the splash of a 
little girl baby being thrown off the bridge into the Ganges 
River, because it was still their custom to disrespect the 
little female lives in their culture.
    So here we are, the modern version of this, the modern 
version of this that is identified by what we call science, and 
a way to bypass the guilt of listening to that widow scream or 
that baby gurgle in the river, and now it is a science-selected 
death of an innocent little baby.
    I just saw the little children in the back, and it warms me 
to see them.
    And I hear your testimony, Ms. Yeung. But I just ask you, 
you testified that you did well in science, and I accept that. 
You said that a fetus can't live outside the womb short of 24 
weeks. But I don't think that has been upheld by science. I 
think there are hundreds of little babies that have survived 
outside the womb before 24 weeks.
    So I would just ask you, you know, when did those little 
girls' lives begin? At what instant was it? And could you 
actually take their life the minute before they were born or 
the day or the week or the month? Could you really take them 
back and say viability, and if you don't know that moment of 
viability, doesn't it have to be an instant, an instant that 
life begins? Because if not, aren't we playing guessing games 
with innocent unborn human lives? How can you be a mother and 
not think about those things as learned as you are in science?
    Ms. Yeung. Respectfully, I am a very good mother.
    I think, you know, this bill purports to address gender 
inequity and gender discrimination, which is a driver of your 
preference, and we have been on record very concerned about 
gender inequities. And all of the international agencies that I 
have mentioned before have all talked about----
    Mr. King. Ms. Yeung, I apologize for having to interrupt 
you, but I do recall that you didn't answer the question from 
the gentleman from Ohio, so I don't think I want to let the 
clock tick down on this.
    I will just ask you, have you contemplated the instant that 
your child's life began? Do you think of that in the terms of a 
instant in the way I framed the question to you?
    Ms. Yeung. I think that is a question of a very personal 
nature.
    Mr. King. You are here to testify though as an expert 
witness and as a mother and you identified that in your 
testimony.
    Ms. Yeung. Sure.
    Mr. King. So are you here now saying that you would 
advocate that we not limit the abortion of little baby girls 
based on your testimony that I shouldn't ask you personal 
questions? Isn't it personal to those little unborn babies?
    Ms. Yeung. I am here to testify for--against racial 
discrimination and against gender discrimination. I will not 
submit myself to personal questions of that nature and 
insinuations that I am not a perfectly fine mother.
    Mr. King. Then I would say that you are disqualified here 
as a witness, and I am done with my questions of you.
    And I would turn to the gentleman Mr. Black, and I ask you, 
Mr. Black, you have done some research or written a book, and I 
am interested in the genesis of the Planned Parenthood. Who 
were the people that formed it, the years prior to World War 
II, the first half of 20th Century, what were the names of the 
organizations that emerged from those leaders, the names of the 
leaders, the names of the organizations that emerged from those 
leaders and how that morphed into Planned Parenthood?
    Mr. Black. You want the history of Margaret--Planned 
Parenthood and Margaret Sanger before Hitler, before the Third 
Reich?
    Mr. King. Yes, the names of the American players in 
particular.
    Mr. Black. Well, this is a very, very sensitive matter, so 
it is important to put the truth in context, and I am not 
seeking to judge modern day organizations by what happened 60, 
70, 80 years ago. But since you have asked me the history, I 
should tell you that Margaret Sanger was one of the leading 
eugenicists in the United States. She was a racist. She 
believed in saving humanity, the historical record and her own 
writings show, and saving it by eliminating two-thirds of it.
    She referred to the people she wanted to get rid of as 
human weeds. She was never, contrary to some suggestion that 
she was a good face for eugenics, he was never accepted in the 
eugenics circles by the American Eugenics Society, et cetera, 
because she was a woman. And she was trying to find a humane 
alternative to gas chambers, coercive sterilization, 
confinement, et cetera, et cetera.
    She did have midnight meetings with the Ku Klux Klan. Adolf 
Hitler did write fan mail to her colleague Lothrop Stoddard, 
who wrote ``The Passing of the Great White Race,'' and Adolph 
Hitler wrote to him, your book is my Bible. And she maintained 
her identity as a eugenicist long after World War II finished 
and long after eugenics was codified into international law, 
the Genocide Treaty, as a crime against humanity and as a 
violation under Article II, Sub D, of the Genocide Treaty as 
genocide because a particular group was being identified. 
That's the facts of the history.
    I can give you lots of facts about this institution, which 
also enabled these very same people, such as Harry Laughlin 
during the National Origins Act created the Federal Eugenics 
Officer who then devised the formula that Hitler employed to 
have the Nuremberg laws, for which Harry Laughlin from the 
Carnegie Institution received an award from the Hitler regime 
in 1937.
    Where did they get this idea of a half Jew and a quarter 
Jew and a 16th of a Jew? That all came from the Congress of the 
United States. That all came from Harry Laughlin, Federal 
Eugenics Officer. That all came from the Carnegie Institution. 
That is who invented this stuff.
    So the short answer to your question, was Margaret Sanger a 
racist with an organic connection to Nazism, the short answer 
is yes. The long answer is, the short answer isn't as good as 
the long answer.
    Mr. King. Thank you, Mr. Black.
    I appreciate it and I yield back.
    Mr. Franks. Thank you, Mr. King.
    And I recognize Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    Mr. Aden, is it legal in America to force someone to have 
an abortion?
    Mr. Aden. No, sir.
    Mr. Scott. Is it legal to force someone to have an 
abortion?
    Mr. Aden. To the best of my knowledge, there is no Federal 
law that prohibits it. A number of States have passed laws that 
do. Of course, the Supreme Court in Roe v. Wade said something 
about it being a woman's choice and actually upheld in Roe v. 
Wade, affirmed the right of pro-life doctors and nurses not to 
participate in abortions. So, from the beginning, it was 
intended that it be a woman's choice, which is why it is so 
important for this legislation to target coerced abortion. To 
my knowledge, this will be the first time that it is addressed 
in Federal legislation.
    Mr. Scott. So if you forced a woman to undergo an abortion, 
that would not be a crime in the United States?
    Mr. Aden. It might be kid--I am not an expert on criminal 
law, sir, but I do believe it would be kidnapping. It would be 
battery.
    Mr. Scott. You can't imagine that forcing someone to have 
an abortion and not looking at civil--criminal liability?
    Mr. Aden. Yes, sir. It would also be battery on the part of 
the doctor if he knew that the woman was not giving her 
consent.
    Mr. Scott. Okay, that would be forced and coercion. If you 
forced someone to have abortion, would that be a crime in the 
United States?
    Mr. Aden. If it took those forms that fall under those 
criminal statutes, yes.
    Mr. Scott. Because in your perfect example, you had parents 
who forced their daughter to have an abortion because of the 
race of the father. If the parents forced their daughter to 
have an abortion for any other reason, wouldn't that be a 
crime?
    Mr. Aden. It could be.
    Mr. Scott. It could be.
    Mr. Aden. It could be. And, again, on the part of the 
doctor if he knew the minor didn't give her full informed 
consent, it would be battery.
    Mr. Scott. So the situation that you--perfect example you 
gave where they forced her to have an abortion because of the 
race of the father, that has already got to be a crime?
    Mr. Aden. Depending on the circumstances, yes, sir, it 
would be. But civil rights legislation has not waited for all 
of the particulars of private action to add up to a Federal 
offense in order to prophylactically address activity, like 
excluding African Americans from lodging, lunch counters, 
education and other places like that.
    There is a place appropriately for broad prophylactic 
measures that the Congress has said many times and the Supreme 
Court has affirmed in addressing----
    Mr. Scott. In those cases, it was not illegal to decide--
you could decide who you wanted in your hotel and who you 
didn't want in your hotel, and what the civil rights laws did 
was to establish protective classes, where you could not 
exclude certain people because of those characteristics.
    Mr. Aden. That is right, sir.
    Mr. Scott. And we made something that was legal illegal. 
And the question was whether or not forcing someone or coercing 
someone to have an abortion is already illegal, whatever the 
purpose. How would you ascertain what the purpose was if there 
was no comment made as to the purpose of the abortion?
    Mr. Aden. The same way that the Justice Department's Civil 
Rights Division ascertains that fact in enforcing a variety of 
civil rights legislation; the statements of the perpetrator, 
the circumstances of the action, the usual tools that a 
prosecutor has in proving the elements of a crime or offense.
    Mr. Scott. Well, if a doctor is performing abortions, and 
someone comes in for a sex-selected abortion and nothing is 
said one way or the other--I mean, we have heard a lot about 
the numbers of abortions and the race and location. How would 
you--if a lot of abortions are going on, in an individual 
abortion, how would you prosecute a doctor for performing 
abortions that had the effect of being racially biased?
    Mr. Aden. Well, in the case of a sex-selection abortion, 
for example, there is a requirement that a doctor ascertain 
that he or she has obtained full informed consent from the 
patient. It is under common law. It is under State statute. If 
a woman comes in and she has had, for example, two abortions in 
a row of a female baby, that might raise an inference in the 
mind of the doctor and might impose on the doctor an obligation 
to inquire about the circumstances to ensure that the patient 
has not been coerced into this abortion, particularly if she 
comes from one of the populations, subpopulations, that has a 
proclivity toward this kind of coerced abortion for gender.
    Mr. Scott. If he doesn't do that due diligence, he is 
guilty of a criminal offense?
    Mr. Aden. I am sorry, sir?
    Mr. Scott. If he does not do the due diligence to ascertain 
why the woman is having an abortion, he would be exposed to 
criminal prosecution?
    Mr. Aden. If the circumstances are patent to the average 
reasonable doctor, it might be a matter for an inquiry by the 
Justice Department, yes, sir. That is the seriousness with 
which we take racial and gender discrimination in this country.
    Ms. Yeung. Mr. Scott?
    Mr. Franks. In the interest of not having to come back here 
after votes, we are going to have a second round here. I think 
there are only three of us left and maybe we can do this 
without having could to come back after votes. So I am going to 
go ahead and recognize myself for 5 minutes for questions.
    You know, I think it is important to remind ourselves here 
that we have talked about a lot of different things here, but 
this bill essentially says that you can't discriminate against 
the unborn by subjecting them to an abortion based on their 
race or sex.
    Ms. Yeung, you testified that you were here to address 
racial or discrimination inequities against women or different 
races. And I would just suggest to you that being aborted 
because you are a little girl is a gender inequity. And I know 
you are having a hard time with that. It is unfortunate. It 
doesn't seem like you have read the bill, because you didn't 
know there was a section in there on coercion, and it was one 
of the main parts of the bill.
    Be that as it may, to address Mr. Mosher's concern or 
question here earlier that was asked, Mr. Mosher, isn't it true 
that on the State level, that battery like that would be like a 
State misdemeanor, and this would make coercing a woman to 
abort her child because the child is a little girl then would 
become a felony? That is one of the distinctions in the bill, 
is that correct?
    Mr. Mosher. Yes, I would agree with that.
    Mr. Franks. Thank you, sir.
    Let me, if I could, return to you, Mr. Black. You know, 
when I look back at the effect of eugenicist ideas, sometimes 
ideas have pretty profound implications. From your testimony 
today, I am sensing that--and you can correct me if I am wrong 
when you respond--that the abortion-birth control establishment 
early on in this country had roots in eugenics, and it appears 
that those eugenic goals were tantamount to genocide. And it 
appears that they achieved those goals, if you look at some of 
the numbers today. Also it is clear to me that some of these 
eugenicist ideas were part of the tragedy that took place in 
Europe, that catalyzed the genocide in Europe and the ultimate 
ensuing war that took place because of it. And if I remember 
right, about 50 million people died in that war.
    So these ideas are not trivial ideas. Fifty million unborn 
children have died since 1973 in this country. And when they 
talk about has it liberated women, I am not sure we have 
liberated women by killing 50 million children. It seems like 
there's better ways to help mothers than killing their children 
for them.
    But my question is this: We are never quite so eloquent as 
when we decry the crimes of a past generation, and we are never 
quite so blind as when we assess genocide in our own time, and 
sometimes we don't know what present policies like a eugenicist 
attitude portend for future generations.
    So, can you tell us in your mind if we don't draw a line 
here at sex selection and race selection, what does the future 
portend? What are the policies going forward? What are the 
possibilities? Where are we going as a people if we allow this 
to be sewn into our policies regarding some of these new 
technologies and some of these new ways that we are delving 
into the very deepest elements of life?
    Mr. Black. Thank you for the question. First of all, I 
should mention that I had unrestricted access to all the files 
of Planned Parenthood and Margaret Sanger, published and 
unpublished, to a large extent when I did my research, as well 
as all of her writings.
    Planned Parenthood at that time, not now, but at that time 
was not rooted in eugenics. It was eugenics. It was open 
eugenics. The cause and effect of what the United States race 
policy did here and what we did in--what we funded in Germany, 
what we inspired in Germany, with Nazi Germany, we know exactly 
what books Hitler was reading in his prison cell when he was 
writing Mein Kampf and which editions they were and which 
eugenics books and which publishers and translations. I have 
all of that down.
    Now, we are moving, and let me just bring out the Genocide 
Treaty here. I always carry it with me. The reason that Article 
II, Sub D, imposing measures intended to prevent birth within 
the group, and the group here being women or any race or any 
gender, the reason that is important is because eugenics is an 
attempt to affect bloodlines.
    You know, they used to say that you can take a Negro and 
you could dress him up in a toga and teach him Latin and that 
would not make him a Roman. It was the descendants of this 
society that they were always worried about based on Mendel's 
principles of heredity with the striped pea and the smooth pea. 
And right now, today, this minute, the transhumanist movement, 
which is well-funded and well-established, and corporations who 
have run afoul of the genetic anti-discrimination statutes both 
in the U.K. and the U.S. are trying to manipulate and create a 
society.
    I would defer to Mr. Mosher, who knows more than I about 
this, but if I am not mistaken, in approximately 8 years, as a 
result of son preference and this subtraction of women, in 
approximately 8 years, some 40 to 45 million Chinese young men 
under the age of 20 will not have brides because of the gender 
imbalance. He can correct me.
    Mr. Franks. Would you like it address that, Mr. Mosher?
    Mr. Black. And just one other thing; 40 to 45 million, it 
is in 8 years. It just two more terms, that 40-45 million is 
approximately the same size of the male population in the 
United States of America at that particular age, 18, 19 and 20. 
And this data comes from the Chinese Academy of Social 
Sciences, to which Mr. Mosher is far more qualified to talk 
than I do.
    So the reason I am here is because you are attempting to 
address a doorway that our society is going into because we are 
moving from organized and systemic, and that is the key word, 
systemized, organized and systemized subtraction of a group, in 
this case women or Black people or whatever gender it is, to 
create, to socially engineer. If we just let it keep going this 
way, there is reason to believe that we won't really have a 
society because we will have gone against the biological 
imperatives and the biological opportunities that are a balance 
between the genders provide in a natural society. So, actually, 
you are slightly ahead of the game, because, I assure you, it 
is coming.
    Mr. Franks. Mr. Mosher, did you want to follow up? More.
    Mr. Mosher. Yes, thank you, Mr. Chairman. I would say that 
those numbers are approximately right. The selective 
elimination of little girls in China continues apace, more so 
by sex-selective abortion now than by female infanticide, and 
that is going to cause huge social problems in China in the 
future. And you can already see those problems arising now with 
tens of millions of young men not being able to find brides.
    But I must say that I think that the insouciance of some of 
the people on the other side of this issue who are not 
enthusiastic about the PRENDA bill must derive from the fact 
that they think these are transitory phenomena, that, yes, 
these immigrant populations will practice this now, but the 
problem will disappear over time. And I would remind people 
here that the study that looked into that question by Almond 
and Edmond pointed out that women in those minority populations 
who were born here actually had higher rates, not lower rates, 
but higher rates of sex-selective abortion.
    So this is not a problem that is likely to simply disappear 
over time. And indeed, with our reckless genetic engineering, 
as in the future, we start selecting for hair color, height, 
IQ, eye color and everything else, and against eye colors and 
skin colors that we don't like, that sex-selective abortion and 
race-selective abortion is probably going to become more common 
rather than less common as the technology becomes available. 
Violence against women will become more common in this regard 
rather than less common. So the time, I believe, to legislate 
against this is now.
    Mr. Franks. Thank you. I now recognize Mr. King.
    Mr. King. Thank you, Mr. Chairman.
    I would like to inquire of Mr. Mosher, you went to study in 
China in the late 1970's. Was it right before the beginning of 
the one child policy that you arrived there or right after?
    Mr. Mosher. Well, I arrived in China in March 1980, about 2 
months after we normalized diplomatic relations with the 
People's Republic of China. I was teaching at the University of 
California at Berkeley at the time. And the program descended 
upon the area that I was in, in the spring of 1980, in March 
1980.
    Quotas went out from the provincial government reflecting 
new directives from the Central Committee of the Chinese 
Communist Party, directing that the population of Canton 
Province not increase by more than 1 percent in 1980, and they 
carried out that dictate by arresting women for the crime of 
being pregnant. These were women who in many cases were 7, 8, 
and 9 months pregnant, who had gotten pregnant when it was 
legal to have a second or a third or fourth order child, and 
now all of a sudden, the state was declaring their pregnancies 
illegal. And then I went with them as they were taken in for 
forced abortions.
    Obviously, you will understand that I am very sensitive to 
issues of coercion because I am an eyewitness to coercion in 
China. I saw women taken in by force and given cesarean section 
abortions in the third trimester of pregnancy, which is not a 
pretty sight.
    But there are levels of coercion and there are levels of 
abuse, and, unfortunately, we see elements of the coercion that 
takes place in China, not just on a cultural level or a social 
level, but actually on a physical level, in some populations, 
some communities in the United States. So there is coercion 
involved in sex-selective abortion in the United States.
    Mr. King. Mr. Mosher, I am just very curious. It is a 
gruesome story, and I understand that, but how you transpose 
that into the United States, I can't imagine this public 
accepting something like that. What goes on in the culture or 
the minds of the Chinese to allow something like that to 
happen, forced abortions and cesarian-section abortions in the 
7th, 8th and 9th month. How did the public react to that? What 
existed within their culture that allowed that to happen?
    Mr. Mosher. That is a very interesting question which would 
probably take--the answer to which would take more time than we 
have at our disposal. But I can say that the brunt of the one 
child policy has fallen on girls. It is girls who are 
discriminated against in the womb. It is girls who are 
discriminated against after birth. It is girls who fill the 
orphanages of China, being abandoned by their parents in the 
hope that they can then go to the officials and say, my 
daughter is no longer here; may I have permission to have 
another child?
    Mr. King. Do you accept the number of 35,000 forced 
abortions a day in China?
    Mr. Mosher. Absolutely. The number of abortions in China 
ranges from 7 to 15 million each year. Many of those abortions 
involve elements of coercion. Some of them, not an 
insignificant number, involve out and out coercion, out and out 
physical force.
    Mr. King. And that number is probably reduced over years 
because they have been adapting to the policy of one child in 
different ways to avoid the gruesomeness of the way it abruptly 
entered upon the society that you were in?
    Mr. Mosher. Well, there are two factors. One is that 
subsequent to a forced abortion, the women in question are 
generally sterilized, so they will not be back illegally 
pregnant in years to come. That has reduced gradually over time 
the number of abortions. China's economic development with 
urbanization and modernization has reduced the desire of young 
people in China who live in cities for children. So that has 
lowered the level of abortions and coercion in China.
    But the policy still continues. We have been in China. We 
at The Population Research Institute carry out periodic 
investigations in China. We do work in China. And there are 
still high levels of coercion in that country.
    Mr. King. Thank you, Mr. Mosher.
    I would like to turn to Mr. Aden, who hasn't had a lot of 
action here today and ask you this question--I posed it a 
little bit in the earlier round. But this practice that exists 
in this country with regard to sex-selected abortions and race-
selected abortions, if this Congress were to advocate for such 
a policy in the affirmative, if we passed a law in this 
Congress that brought about sex-selected abortions, race-
selected abortions, and promoted them, as was the law in China, 
what do you think the results would be in the streets of 
America and how would you respond to that?
    Mr. Aden. Well, as a lawyer, I would have to say that in 
the corridors of the Supreme Court it would not fly, because it 
would be racial and gender discrimination. And I cannot imagine 
the Congress passing such a policy like China's.
    Mr. King. But can only government discriminate by race and 
gender, or can individuals do that? Doesn't the 14th Amendment 
protect all by the same standard?
    Mr. Aden. Well, sir, the Constitution applies directly, of 
course, to government officials--Federal, State, and local 
public officials. It does not directly apply to the acts of 
private individuals.
    But the Supreme Court has affirmed in cases like Heart of 
Atlanta Motel and Katzenbach v. McClung that the Commerce 
Clause is an appropriate authority for eradicating badges of 
slavery. And in other cases involving gender discrimination, 
the Court has applied that rule to gender discrimination based 
on outmoded, archaic stereotypes.
    So what the Supreme Court has said is that it is not--
Congress is not bound to sit and wait until racially 
discriminatory and gender discriminatory policies make 
themselves manifest. They can act--the Congress can act 
proactively in addressing them, as it has many times.
    Mr. King. And haven't we also acted, at least by 
resolution, to reject the genocide in China that Mr. Mosher 
talked about, as an act of Congress?
    Mr. Aden. Oh, certainly, yes. The resolutions there, the 
words of the Secretary of State condemning China's sex-
selection policy, and the efforts of our delegation to the 
United Nations Committee on the Status of Women would point to 
that.
    Mr. King. Then would it be consistent of Congress to pass 
this legislation that is the subject of this hearing today 
consistent with the previous acts of Congress that have 
condemned the genocide in the other countries?
    Mr. Aden. Yes, sir, it would be quite consistent with 
Congress' previous statements on these issues.
    Mr. King. All right. I thank you, Mr. Aden.
    And I thank all the witnesses for your testimony and the 
Chairman for the hearing.
    And I yield back the balance of my time.
    Mr. Franks. Mr. Black, you have heard a lot of numbers here 
today. And I hear you talking about the never-born. Do you 
believe that the numbers here related to up to 200 million baby 
girls worldwide, do you believe that the numbers are overstated 
as to the impact of the policies that we have discussed this 
morning, or this afternoon?
    Mr. Black. From the historical perspective, I think that 
these numbers are not overstated; they might be understated.
    You know, when you attempt to wipe away the stars and there 
are no stars left and you say, ``Now I have counted all the 
stars, I will wipe them away,'' what about the stars you cannot 
see that are beyond your plane of sight? I believe that we 
can't fathom or measure what has been lost from any genocide. 
We cannot fathom or measure what is lost from any society by 
subtracting the young man that you spoke of playing piano with 
his feet, a Stephen Hawking, a bad mathematician like Albert 
Einstein, a guy with a bad back like me, and lots of other 
people. For heaven's sake, there was a guy on one of these TV 
shows; he was competing for the best singer. And he was found 
in a shoebox in an orphanage in Iraq.
    None of us may judge the value of a human being. We don't 
have the measuring sticks, and we don't have the right, 
historically speaking, to do this to another person. And that 
is why the genocide laws indicate the group, any group, whether 
it is Biafrans; whether it is American Indians, who were 
imposed upon by the BIA, Bureau of Indian Affairs, to get 
abortions and to get forcibly sterilized. None of us can decide 
what is best for humanity. That is what nature is about. That 
is what the Almighty is about, if I can use the historical 
term, okay?
    Mr. Franks. Well, I don't know how to add a great deal to 
that or what other questions I could ask that would bring more 
relevance to the central point here.
    The fact is that when we consider historically some of the 
great struggles of our past, whether it is World War II that 
cost us 50 million people or whether it is 50 million abortions 
since 1973 or whether it is 200 million little baby girls that 
have been aborted because they are little girls--I think 
someone would say the civil war in our country had something to 
do with racial inequity--it does call out to each of us that 
this notion that we can just have ideas that suggest that 
another group or another person is less than we are or that 
somehow they can be discarded and that it not have a tremendous 
impact on the greater whole of humanity is a failed notion.
    And the implications are pretty profound. I heard a 
gentleman earlier today say, you know, the most dangerous three 
words in the world now are, ``It's a girl.''
    And I just want to thank all of you for being here.
    I believe, Mr. Black, your comments about some of the 
challenges that we face are so very relevant.
    And I hope that somehow we can end this hearing where we 
began, and that is the notion that, in America, everyone is 
created equal and endowed by their creator with certain 
unalienable rights, and among these are life, liberty, and the 
pursuit of happiness. And that pretty much covers all of us. 
And if we can hold on to that, I think there is hope for 
humanity.
    And, with that, I would just say, without objection, all 
Members will have 5 legislative days to submit to the Chair 
additional written questions for the witnesses, which we will 
forward to the witnesses and ask them to respond as promptly as 
they can so their answers may be part of the record.
    Without objection, all Members will have 5 legislative days 
in which to submit any additional materials for inclusion in 
the record.
    And, with that, again, I thank all the witnesses.
    And I thank all of the people that have joined us here 
today in the audience. There wasn't any fighting or cussing or 
throwing bricks or anything. It was wonderful. I appreciate you 
all being here.
    And this hearing is now adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]





























                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Material Submitted by the Honorable Trent Franks, a Representative in 
 Congress from the State of Arizona, and Chairman, Subcommittee on the 
                              Constitution

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               __________

Material Submitted by the Honorable Jerrold Nadler, a Representative in 
 Congress from the State of New York, and Ranking Member, Subcommittee 
                          on the Constitution

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                               

                                 <all>

</pre></body></html>
